 FEDERAL ELECTION COMMISSION 


  OFFICE OF INSPECTOR GENERAL 





            FINAL REPORT 


Audit of the Federal Election Commission’s 

  Fiscal Year 2009 Financial Statements 





             November 2009 


        ASSIGNMENT No. OIG-09-01 

                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:    	       The Commission

FROM:          	Inspector General

SUBJECT: 	    Audit of the Federal Election Commission’s Fiscal Year 2009 Financial
              Statements

DATE: 	        November 13, 2009


Pursuant to the Chief Financial Officers Act of 1990, commonly referred to as the “CFO
Act,” as amended, this letter transmits the Independent Auditor’s Report issued by Leon
Snead & Company (LSC), P.C. for the fiscal year ending September 30, 2009. The audit
was performed under a contract with, and monitored by, the Office of Inspector General
(OIG), in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.

Opinion on the Financial Statements

LSC audited the balance sheet of the Federal Election Commission (FEC) as of
September 30, 2009, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity (the financial statements) for the year then
ended. The objective of the audit was to express an opinion on the fair presentation of
those financial statements. In connection with the audit, LSC also considered the FEC’s
internal control over financial reporting and tested the FEC’s compliance with certain
provisions of applicable laws and regulations that could have a direct and material effect
on its financial statements. The financial statements of the FEC as of September 30,
2008, were audited by other auditors whose report dated November 7, 2008, expressed an
unqualified opinion on those statements.

In LSC’s opinion, the financial statements present fairly, in all material respects, the
financial position, net cost, changes in net position, budgetary resources, and custodial
activity of the FEC as of, and for the year ending September 30, 2009, in conformity with
accounting principles generally accepted in the United States of America.
Report on Internal Control

In planning and performing the audit of the financial statements of the FEC, LSC
considered the FEC’s internal control over financial reporting (internal control) as a basis
for designing auditing procedures for the purpose of expressing their opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness
of the FEC’s internal control. Accordingly, LSC did not express an opinion on the
effectiveness of the FEC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. According to the American Institute of Certified
Public Accountants:
   •	 A control deficiency exists when the design or operation of a control does not
       allow management or employees, in the normal course of performing their
       assigned functions, to prevent or detect misstatements on a timely basis.
   •	 A significant deficiency is a control deficiency, or combination of control
       deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
       process, or report financial data reliably in accordance with generally accepted
       accounting principles such that there is a more than remote likelihood that a
       misstatement of the entity’s financial statements that is more than inconsequential
       will not be prevented or detected by the entity’s internal control.
   •	 A material weakness is a significant deficiency, or combination of significant
       deficiencies, that results in more than a remote likelihood that a material
       misstatement of the financial statements will not be prevented or detected by the
       entity’s internal control.

LSC’s consideration of internal control was for the limited purpose described in the first
paragraph in this section and would not necessarily identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses. LSC did not
identify any deficiencies in internal control that LSC would consider to be material
weaknesses, as defined above. However, LSC identified, as listed below, two
deficiencies in internal controls that LSC considers to be significant deficiencies.
    •	 Internal Controls over Financial Reporting
    •	 Information Technology (IT) Security Control Weaknesses


Report on Compliance with Laws and Regulations

FEC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FEC’s financial statements
are free of material misstatements, LSC performed tests of compliance with certain
provisions of laws and regulations, noncompliance which could have a direct and
material effect on the determination of financial statement amounts, and certain other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. LSC did not test
compliance with all laws and regulations applicable to FEC.


                                               2

The results of LSC’s tests of compliance with laws and regulations described in the audit
report disclosed an instance of reportable noncompliance that is required to be reported
under U.S. generally accepted government auditing standards or OMB guidance.

LSC identified a reportable noncompliance in the area of:
  • Compliance with the Debt Collection Improvement Act


Audit Follow-up

The independent auditor’s report contains recommendations to address deficiencies
found by the auditors. Management was provided a draft copy of the audit report for
comment and generally concurred with the findings and recommendations. In
accordance with OMB Circular No. A-50, Audit Follow-up, revised, the FEC’s corrective
action plan is to set forth the specific action planned to implement the recommendations
and the schedule for implementation. The Commission has designated the Chief
Financial Officer to be the audit follow-up official for the financial statement audit.

OIG Evaluation of Leon Snead & Company’s Audit Performance

We reviewed LSC’s report and related documentation and made necessary inquiries of its
representatives. Our review was not intended to enable the OIG to express, and we do
not express an opinion on the FEC’s financial statements; nor do we provide conclusions
about the effectiveness of internal control or conclusions on FEC’s compliance with laws
and regulations. However, the OIG review disclosed no instances where LSC did not
comply, in all material respects, with Government Auditing Standards.

We appreciate the courtesies and cooperation extended to LSC and the OIG staff during
the audit. If you should have any questions concerning this report, please contact my
office on (202) 694-1015.




                                                    Lynne A. McFarland
                                                    Inspector General

Attachment

Cc: 	   Alec Palmer, Acting Staff Director/Chief Information Officer
        Mary G. Sprague, Chief Financial Officer
        Thomasenia P. Duncan, General Counsel




                                            3

 FEDERAL ELECTION COMMISSION

      Audit of Financial Statements

        As of and for the Year Ended

            September 30, 2009




                   Submitted By


            Leon Snead & Company, P.C.

Certified Public Accountants & Management Consultants
                                    TABLE OF CONTENTS




                                                                                                                            Page



Independent Auditor’s Report..............................................................................................1


       Summary.....................................................................................................................1


       Opinion on the Financial Statements ..........................................................................2


       Internal Control over Financial Reporting..................................................................2


             1. FEC Needs to Improve Internal Controls over Financial Reporting ..............3


             2. IT Security Control Weaknesses...................................................................10


       Compliance with Laws and Regulations...................................................................20


             3. Compliance with Debt Collection Improvement Act ...................................20


      Appendix 1 - Status of Prior Year Recommendations...............................................24


      Appendix 2 - Agency Response to Draft Report .......................................................26

The following sections discuss in more detail our opinion on the FEC’s financial
statements, our consideration of the FEC’s internal control over financial reporting, our
tests of the FEC’s compliance with certain provisions of applicable laws and regulations,
and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the FEC as of September 30, 2009,
and the related statements of net cost, changes in net position, budgetary resources, and
custodial activity for the year then ended. The financial statements of FEC as of and for
the year ended September 30, 2008, were audited by other auditors whose report dated
November 7, 2008, expressed an unqualified opinion on those statements.

In our opinion, the financial statements referred to above, present fairly, in all material
respects, the financial position, net cost, changes in net position, budgetary resources, and
custodial activity of the FEC as of and for the year ended September 30, 2009, in
conformity with accounting principles generally accepted in the United States of
America.

The information in the Management’s Discussion and Analysis section is supplementary
information required by accounting principles generally accepted in the United States of
America or OMB Circular A-136, Financial Reporting Requirements. We have applied
certain limited procedures, which consisted principally of inquiries of FEC management
regarding the methods of measurement and presentation of the supplementary
information and analysis of the information for consistency with the financial statements.
However, we did not audit the information and express no opinion on it. Such
information has not been subjected to the auditing procedures applied in the audit of the
basic financial statements and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the financial statements of the FEC, as of and for
the year ended September 30, 2009, in accordance with auditing standards generally
accepted in the Unites States of America, we considered the FEC’s internal control over
financial reporting (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose
of expressing an opinion on the effectiveness of the FEC’s internal control. Accordingly,
we do not express an opinion on the effectiveness of the FEC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis.




Leon Snead & Company, P.C.                      2
A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the entity’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with generally accepted accounting principles such
that there is a more than remote likelihood that a misstatement of the entity’s financial
statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control. A material weakness is a significant deficiency, or combination
of significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected by the entity’s
internal control.

Our consideration of internal control was for the limited purpose described in the first
paragraph in this section of the report and would not necessarily identify all deficiencies
in internal control that might be significant deficiencies or material weaknesses. We did
not identify any deficiencies in internal control that we consider to be material
weaknesses, as defined above. However, we identified, as discussed below, two
deficiencies in internal controls that we consider to be significant deficiencies.

   1. FEC Needs to Improve Internal Controls over Financial Reporting

       Several of the deficiencies that impacted FEC’s 2008 financial management
       operations either had not been fully corrected, or were not corrected until late in
       fiscal year 2009. We noted additional issues that impacted financial management
       operations during the 2009 fiscal year. These issues resulted in part because FEC
       did not have a permanent Chief Financial Officer (CFO), until March 2009 and
       the Office of the Chief Financial Officer (OCFO) was not fully staffed until late in
       fiscal year 2009. Taken together, these deficiencies represented a significant
       deficiency in internal controls over financial reporting.

       a. FEC Needs to Improve Accruals of Accounts Payable

           OCFO personnel did not accrue certain accounts payable at the end of fiscal
           year 2008 and incorrectly posted these transactions as 2009 fiscal year
           activity. FEC did not have appropriate processes in place to accrue accounts
           payable for year-end financial reporting purposes. As a result, costs on FEC’s
           2009 Statement of Net Cost (SNC) were overstated by approximately
           $200,000. Conversely, liabilities on the 2008 Balance Sheet and costs on the
           2008 SNC were understated by this same amount.

           Statement of Federal Financial Accounting Standards (SFFAS) No. 1 provides
           “for financial reporting purposes, liabilities are recognized when goods and
           services are received or are recognized based upon an estimate of work
           completed under a contract or agreement.” SFFAS No. 5, Accounting for
           Liabilities of the Federal Government, requires liabilities to be recognized
           when goods and services are received. Under that standard, agencies are
           required to estimate the work completed under contracts and accrue expenses




Leon Snead & Company, P.C.                       3
           and liabilities for goods and services received, even if the agency has not yet
           been billed.

           We tested a sample of 2009 expense transactions and determined that FEC
           had not correctly accrued accounts payable at the end of the 2008 fiscal year.
           We analyzed the impact of these errors and determined that FEC had
           misstated both the 2009 and 2008 financial statements by including 2008
           expenses in 2009 account balances. We expanded our tests in this area to
           determine if similar errors had been made at 2009 year-end, and we did not
           identify similar problems with the 2009 accrual process.

           We discussed this matter with OCFO personnel who agreed that the
           transactions should have been accrued and included in the 2008 FEC financial
           statements. While not material, the transactions also impacted the 2009
           financial statements. To address this problem, the OCFO developed
           additional controls and issued new accounting policies that they believe will
           correct this problem area.

           Recommendations

           1.	 Strengthen controls over the accruals of accounts payable, and ensure that
               supervisory reviews of accounts payable accruals are performed.

           2.	 Update OCFO policies to incorporate the new strengthened processes for
               identifying and posting accounts payable accruals.

           Agency Response

           Management partially concurs. Management concurs that it is important to
           have appropriate controls over the accruals of accounts payable. However,
           Management notes that the referenced Statement of Federal Financial
           Accounting Standards (SFFAS) 5, Accounting for Liabilities of the Federal
           Government, is not the appropriate criteria to cite when discussing
           deficiencies with accounts payable accruals. Management recognizes that one
           invoice was improperly excluded from the accounts payable estimate as of
           September 30, 2008. However, we feel this was an isolated incident and the
           issue noted is not indicative of a lack of internal controls over financial
           reporting. In our opinion, the error noted is immaterial to the FY 2008 and
           FY 2009 financial statements taken as a whole.

           Management believes that the appropriate controls were already in place in
           FY 2008. However, Management concurs that the operational documentation
           at the end of FY 2008 lacked clarity. Therefore, during the preparation of the
           FY 2009 second quarter interim statements, the Office of the Chief Financial
           Officer (OCFO) proactively strengthened its written procedures for this




Leon Snead & Company, P.C.	                   4
           process of identifying and posting estimated accounts payable. Management
           notes that the improved written procedures were in place for the remainder of
           the year. The accounts payable accrual process has since been added to the
           draft version of the Accounting Manual. Management expects to release the
           updated Accounting Manual within the next 180 days.

           Auditor Comments

           We identified the deficiency in internal controls over financial reporting
           during our testing of 2009 transactions. Our statistical sample of 2009
           transactions identified two invoices that were improperly recorded as
           expenses in the 2009 fiscal year. As a result of this error, the 2009 financial
           statements were overstated, and the 2008 financial statements were
           understated. Since these transactions were selected through a statistically
           valid method, we believe they represent a deficiency in internal controls, and
           do not represent “one isolated incident” as stated by FEC officials.

           We disagree with FEC officials that appropriate controls were in place in
           2008. In addition, the ineffective processes which were followed by FEC
           were in place through a significant portion of fiscal year 2009. This is
           evidenced by the changes made in the accrual process by FEC to address our
           Notice of Findings and Recommendations (NFR) issued after the June 30,
           2009 interim financial statements were issued.

           In our NFR provided to FEC officials, we cited SFFAS No. 1 as the criteria
           for our NFR. We have added this reference to our finding in this final audit
           report. SFFAS No. 5, paragraph 3 provides “The concept of a liability in this
           document is consistent with those in Statements Number 1 and 2. The
           definition amends the stated definition of a liability in SFFAS Number 1.” In
           addition, this standard provides the definition and the general principle for
           recognition for a liability, and is applicable to FEC.

       b. Internal Controls over Purchase Card Purchases

           During 2008, OCFO personnel did not follow appropriate control processes
           for the review and approval of purchase card invoices. In order to clear out
           2008 delinquent billings, OCFO personnel researched the transactions and
           paid about $7,000 to the purchase card vendor for identified transactions. To
           expedite the work for the remaining amounts, OCFO personnel made
           payments to clear the delinquent amounts because they could not identify
           supporting documentation.

           The Treasury Financial Manual, Vol. I, Part 4, Chapter 4500, Government
           Purchase Cards, states “…the cardholder and approving official will review
           the cardholder statement of account received at the end of each monthly




Leon Snead & Company, P.C.                    5
           billing cycle and follow contract procedures for identifying discrepancies.
           The cardholder statement must be submitted to the designated billing office
           within a time frame that allows them to process and pay the consolidated
           invoice within the Prompt Payment Act deadline.”

           Our review of a statistical sample of transactions processed during fiscal year
           2009 identified expenses totaling approximately $15,000 that were for the
           payment of several delinquent purchase card transactions that should have
           been researched and corrected by the prior card holder during fiscal year
           2008. While OCFO personnel certified all the transactions as valid purchases,
           our tests showed that approximately $8,000 were not properly matched to
           purchase orders, or invoices and receiving reports that supported the payments
           made. The prior cardholder allowed these accounts to remain unprocessed
           instead of documenting and reconciling each purchase invoice timely.

           We discussed this matter with OCFO personnel who agreed that the original
           transactions should have been reconciled by the original cardholder, and
           matched with proper supporting documents.

           Recommendation

           3.	 Re-emphasize, in writing, to purchase cardholders and managers their
               responsibilities associated with managing the purchase card program
               payment process and the need for effective internal controls as discussed
               in FEC Procurement Procedures.

           Agency Response

           Management concurs that the credit card statement should have been
           reconciled by the original card holder. However, Management believes that
           the corrections needed to address this issue have already been put in place.
           This was an exception to FEC’s approved processes and is not indicative of
           the FEC purchase card process. Additionally, as part of the corrective action
           plan prepared in response to the OIG audit, the OCFO is already in the
           process of revising and strengthening the purchase card procedures.

           Auditor Comments

           FEC officials concur with the finding and that there was an exception to the
           approved processes. We continue to believe that FEC should reinforce to
           purchase card holders the internal control processes that should be followed in
           this important procurement area. This is reinforced by the problems noted by
           the OIG in its procurement and contract management audit released in
           September 2009.




Leon Snead & Company, P.C.	                   6
       c.	 Prior Control Weaknesses Impacted Current Operations

           FEC officials addressed two weaknesses reported in the prior year audit report
           at the beginning of fiscal year 2009. In other cases, corrective actions were
           not implemented or completed until late in fiscal year 2009. The problems
           listed below continued to impact FEC financial management operations
           during a substantial portion of the 2009 fiscal year.

             •	 The 2008 audit reported that FEC did not have adequate resources and
                employees with appropriate financial management accounting and
                reporting skills. The agency experienced turnover in key financial
                positions during fiscal year 2008 and adequate resources were not
                always available to fill the vacancies. As a result, the Accounting
                Officer had to take on some of these responsibilities leaving FEC with
                insufficient resources to effectively administer quality assurance
                procedures within their financial reporting environment.

                 Our review determined that the FEC did not fully correct the problem
                 dealing with the lack of adequate human resources and personnel with
                 the skill sets needed for an effective financial management operation
                 until late in the 2009 fiscal year. However, by the end of the 2009 fiscal
                 year, the FEC had hired a new CFO (March 2009), completed the
                 restructuring of the OCFO, filled additional positions, and hired a
                 contractor to assist with accounting operations. In addition, training was
                 provided to OCFO officials and staff to assist in staff development
                 throughout the 2009 fiscal year. As of the end of the fiscal year, this
                 problem would no longer represent a significant deficiency to FEC’s
                 future financial management operations.

             •	 FEC did not have a comprehensive policy bulletin or guidance
                memorandum as required by OMB Circular A-136. FEC had not
                established a formalized timeline for completing key processes and
                controls related to the financial statement process.

                 We reviewed the actions that FEC took to address this outstanding issue
                 during fiscal year 2009. We found that the FEC had issued updated or
                 new guidance addressing most of the areas where weaknesses were
                 noted in the prior report. However, we found that a significant portion
                 of this guidance was not issued until after March 2009, and another key
                 policy document, the FEC Accounting Manual, was still in draft as of
                 September 30, 2009.




Leon Snead & Company, P.C.	                    7
           Recommendations

           4.	 Update and issue the Accounting Manual within the next six months.

           5.	 Establish a policy that requires OCFO policies and procedures to be
               periodically reviewed and updated, such as on a two to three year cycle.

           Agency Response

           Management partially concurs with these recommendations, and noted that a
           significant amount of work to address these recommendations has already
           been accomplished. Management does not concur that the accounting manual
           was in draft as of September 30, 2009.

           Auditor Comments

           Our finding discusses the actions that the FEC took during the 2009 fiscal
           year to address this 2008 deficiency. As discussed in our finding, significant
           portions of the overall guidance were not updated or completed until May
           2009 or later. In addition, the accounting manual provided to us during the
           audit contained numerous proposed changes, and the OCFO acknowledges in
           their response to the draft report that the accounting manual would be
           completely updated in the next 180 days; another indication the manual has
           not been finalized.

       d.	 Manual Systems Represent Unnecessary Risks to FEC’s Financial
           Management Operations

           FEC uses a service provider for its general ledger and core financial
           management system operations. The FEC also uses spreadsheets, database
           applications, and PeopleSoft to perform selected accounting operations. The
           financial management processes that utilize significant manual operations
           include:

             •	 Collections and Accounts Receivable – Fines and Penalties.
                Accounting for collections, accounts receivable, or fines and penalties
                involves a significant amount of manual operations. The OCFO must
                request accounts receivable information from three divisions. After the
                OCFO obtains the relevant information, the data is input into a database.
                A journal voucher is prepared quarterly and submitted to the service
                provider to record the accounts receivable information into the FEC’s
                core accounting system. Collections, however, are processed to the
                general ledger when the payments are received. Therefore, only at the
                end of each quarter, after the journal voucher is posted to the general




Leon Snead & Company, P.C.	                   8
                 ledger, does the custodial cash and accounts receivable reflect an
                 accurate balance.

             •	 Property and Equipment and Accumulated Depreciation.
                Our review of PP&E disclosed that FEC is using a combination of
                automated and manual processes to manage its property. Effective
                February 1, 2008, capitalized assets are recorded in the general ledger
                with the use of a flexible posting logic system. FEC also uses an access
                database to manage FEC’s personal property inventory and to compute
                depreciation. These entries are then input into the general ledger with a
                journal voucher.

             •	 Payroll Reporting.
                Because the payroll system does not interface with the accounting
                system, FEC must use a PeopleSoft application that is no longer
                supported by the vendor. This process also requires FEC to perform
                manual operations to reconcile the payroll data and prepare journal
                vouchers to input the payroll data into its accounting system.

           OCFO officials are currently analyzing the financial management operations
           of FEC and assessing whether the agency should convert these operations to
           systems operated by its service provider. OCFO is actively working with its
           two service providers to interface the payroll system and the accounting
           system.

           Recommendation

           6.	 Partner with FEC service providers to develop a time-phased plan to
               convert the manual systems and processes to automated systems that are
               integrated or interfaced with the core accounting system. Establish a goal
               of converting these systems by the end of 2010.

           Agency Response

           Management concurs that agencies should consider automating manual
           processes whenever it is appropriate and cost-effective to do so. OCFO has
           implemented necessary compensating controls to minimize risks of any
           manual process. However, FEC will continue to evaluate the potential
           benefits of adopting automated systems and implementing interfaces to
           streamline financial processes.

           Auditor Comments

           We continue to believe that it is important for FEC to convert its manual
           processes to automated systems that are integrated or interfaced with the core




Leon Snead & Company, P.C.	                   9
           accounting system. This problem was also reported as part of a material
           weakness in the 2008 financial statement audit report.

   2. IT Security Control Weaknesses

       The Federal Election Commission (FEC) has corrected several of the significant
       deficiencies that were identified in the 2008 financial statement audit report, and
       has developed plans of action and milestones (POA&M) to address all remaining
       deficiencies identified in that report. However, our 2009 audit of information
       technology (IT) security controls applicable to FEC’s general support system
       (GSS) disclosed other internal control weaknesses that FEC needs to address.
       During our audit, we noted that FEC had contracted with an independent
       contractor to perform a risk assessment and analysis of controls in the GSS.

       The FEC’s Office of General Counsel provided us with a document that identified
       that FEC is exempt from all Federal Information Security Management Act
       (FISMA) requirements, National Institute of Standards and Technology (NIST)
       publications, Federal Information Processing Standards (FIPS), the
       E-Government Act, the Paperwork Reduction Act, the Computer Security Act of
       1987, and OMB Circular A-130, Management of Federal Information Resources,
       Appendix III, Security of Federal Automated Information Resources, among others.
       In effect, FEC is exempt from following most federal laws, regulations,
       standards, and OMB requirements dealing with IT security and related issues.

       In developing standards and guidelines required by law, NIST consults with other
       federal agencies and offices as well as the private sector to improve information
       security, to avoid unnecessary and costly duplication of effort, and ensure that
       NIST publications are complementary with the standards and guidelines
       employed for the protection of national security systems. In addition to its
       comprehensive public review and vetting process, NIST collaborates with the
       Office of the Director of National Intelligence, the Department of Defense, and
       the Committee on National Security Systems to establish a common foundation
       for information security across the federal government.

       NIST notes that a common foundation for information security will provide the
       federal government and their support contractors, more uniform and consistent
       ways to manage the risk to organizational operations that results from operations
       and use of information systems. In addition, a common foundation for
       information security will also provide a strong basis for reciprocal acceptance of
       security authorization decisions and facilitate information sharing.

       Since FEC is exempt from most federal legislative and OMB directives related to
       IT security requirements, FEC selects and implements the security controls the
       agency determines are appropriate for its information system. These internal




Leon Snead & Company, P.C.                    10
        agency selections have major implications on the FEC agency-wide IT security
        program and the operations and assets of the agency.

        In order to determine whether the security controls (security controls are the
        management, operational, and technical safeguards employed within an
        organizational information system to protect the confidentiality, integrity, and
        availability of the system and its information) selected and placed in operation by
        FEC provided “adequate security”, as it pertains to FEC’s GSS, we used the
        federal government’s recommended minimum security controls for non-national
        security systems as a “best practices” standard. These minimum security controls
        are contained in NIST Special Publication (SP) 800-53, Recommended Security
        Controls for Federal Information Systems and Organizations. OMB Circular
        A-130, Appendix III, defines “adequate security” as security commensurate with the
        risk and magnitude of the harm resulting from the loss, misuse, or unauthorized
        access to or modification of information.

        We performed tests of selected minimum security controls in all seventeen
        security requirements indentified for federal information and information systems
        in FIPS 200, Minimum Security Requirements for Federal Information and
        Information Systems. Our tests were accomplished through analysis of documents
        and/or data provided to us by the FEC Office of the Chief Information Officer
        (OCIO), interviews with OCIO personnel, including the Chief Information
        Security Officer (CISO), walk-through of operations, other tests and analysis, and
        review of the FEC’s independent contractor report on security risks identified in
        FEC’s GSS. 1

        The results of our review of IT security controls, and the corrective actions
        planned by FEC, if applicable, are discussed below.

        a.	 Actions Taken to Address Deficiencies Reported in the 2008 Financial
            Statement Report

            We reviewed the significant deficiencies reported in the above cited report
            and FEC’s plan of action and milestones (POA&M), and performed tests to
            determine if FEC had corrected the prior reported deficiencies. In summary,
            we found that FEC had corrected most of the problems reported. We
            determined that the OCIO had prepared a detailed POA&M for each
            deficiency, identified personnel responsible for the corrective actions,
            established target dates for key milestones, and monitored the POA&M. The
            table below details those areas where corrective actions are still ongoing.




1
 FEC – Local Area Network (General Support System), Risk Assessment, dated December 24, 2008,
completed by an independent contractor under contract with FEC.




Leon Snead & Company, P.C.	                        11
                  Issue Reported                  FEC Actions                   LSC Testing and
                                                                                  Conclusions
              Users who had left the        FEC advised that it would      We found that FEC had made
              organization retained         strengthen controls to         improvements, but had not
              active accounts.              ensure that this area is       corrected the issue completely.
                                            corrected.                     This issue remains open.

              FEC has not yet fully         FEC has received funding       We found that FEC had made
              developed contingency         to deploy phase I of its       improvements, but had not
              planning and Continuity of    POA&M. Phase I enables         corrected the issue completely.
              Operations Plans (COOP)       FEC to complete the test       This issue remains open.
              processes. In discussions     plan and schedule exercises
              with OCIO personnel, we       necessary to test the
              were advised that FEC had     contingency plan. FEC
              developed a multi-phased      estimates that the exercises
              plan to address these         and testing should begin in
              deficiencies.                 early 2010. The last phase
                                            of FEC’s contingency
                                            planning process entails the
                                            development of a COOP
                                            plan. This part has not yet
                                            been funded and it is
                                            estimated that the COOP
                                            will not be completed until
                                            the end of fiscal year 2010.



              PeopleSoft application is     FEC uses the system to         We discussed this matter with
              currently running Oracle      process payroll accounting     Director of Accounting.
              Release 8i and this version   data from NFC 2, and           OCFO personnel advised that
              is no longer supported.       generates a journal voucher    they are working with the NFC
                                            to make the accounting         and GSA to integrate the NFC
                                            entries in the GSA             data with the GSA accounting
                                            accounting system. FEC is      system. While this issue is not
                                            working with NFC and           addressed, the actions taken by
                                            GSA to create an interface     FEC will result in corrective
                                            between NFC and GSA.           action in the near future.
                                            FEC believes that this will    However, this issue remains
                                            be accomplished by the end     open.
                                            of the fiscal year.

            OCIO officials advised us that although the vendor no longer provides support
            for this version of Oracle, it does provide limited support, which includes
            assisting customers with “work-arounds” that may arise. OCIO officials also
            advised that, in addition to FEC’s considerable experience with this product,
            the FEC has tested and maintains Oracle 8i applications and data backups


2
 The National Finance Center, a component of the Department of Agriculture, provides payroll systems
services for FEC.




Leon Snead & Company, P.C.                            12
           allowing it to restore any database to a useable state in the event of any
           problem.

       b. Access Controls Need Strengthening

           Because FEC does not have the necessary software to identify a user’s
           specific access authorities, FEC has been unable to perform periodic reviews
           of users’ access authorities. Best practices identify periodic, (at least annual),
           review of access authorities granted to users as a key control practice. This
           process provides a key control technique to ensure access authorities remain
           current, since users frequently change positions and errors can occur when
           inputting access authorities. Without periodic re-certifications of the user’s
           access, any improper access could continue indefinitely.

           We discussed this issue with the CISO who agreed that FEC needs to perform
           the required review of access controls. The CISO advised that the FEC
           obtained the necessary software on October 20, 2009, and once the
           configuration and testing of the software is completed, the periodic review of
           access controls will begin.

           We tested the FEC’s current account settings against the minimum settings
           required by best practices and identified exceptions relating to password
           history enforcement, maximum password age, and minimum password age.

           We also compared FEC’s controls for remote access to the best practice
           requirements and found that FEC had not implemented sufficient controls for
           its dial-up access. For a moderate risk system, such as FEC’s GSS, best
           practices require the organization to employ automated mechanisms to
           facilitate the monitoring and control of remote access methods; use
           cryptography to protect the confidentiality and integrity of remote access
           sessions; control all remote accesses through a limited number of managed
           access control points; permit remote access for privileged functions only for
           compelling operational needs; document the rationale for such access in the
           security plan for the information system; and employ multifactor
           authentication.

           We determined that the dial-up access for FEC currently does not meet any of
           these benchmarks. In contrast, FEC requires personnel who access the
           network through connections other than dial-up access, to use multi-factor
           authentication, a virtual private network (VPN) connection, and full disk
           encryption. The CISO advised that the FEC does not believe that remote
           access controls discussed in best practices are applicable to FEC’s dial-up
           access.




Leon Snead & Company, P.C.                     13
           NIST SP 800-53 (AC-17 Remote Access) provides that “Remote access is any
           access to an organizational information system by a user…communicating
           through an external network (e.g., the Internet). Examples of remote access
           methods include dial-up, broadband, and wireless.” As noted above, the
           controls, in our opinion, are applicable to FEC’s dial-up access.

       c.	 Continuous Monitoring

           Government Accountability Office’s (GAO) “Standards for Internal Control
           in the Federal Government” documents the five standards of internal control.
           One of these standards requires agencies to assure that ongoing monitoring
           occurs in the course of normal operations. Under the standard, monitoring is
           to be performed continually and is ingrained in the agency’s operations. A
           continuous monitoring program includes an ongoing assessment of security
           control effectiveness to determine if the current deployed set of security
           controls need to be modified or updated based on changes in the information
           system or its operational environment.

           We reviewed the continuous monitoring program of FEC, and the independent
           contractor’s risk assessment of FEC’s general support system, and noted the
           following problems:

               •	 Access controls – FEC was not monitoring the role of remote users
                  who had accessed the FEC LAN.
               •	 Audit and Accountability controls – FEC had not established routine
                  review procedures for FEC’s general support system audit logs in
                  order to identify inappropriate or suspicious activity.
               •	 Risk Assessment – FEC had not established and documented the
                  frequency of vulnerability scans throughout the enterprise, or
                  established a continuous monitoring capability that incorporated at
                  least quarterly vulnerability scans of FEC’s network and workstations.

           FEC’s current processes call for a service provider to perform vulnerability
           scanning of the FEC external network quarterly. The service provider
           performed scans in June 2008 and December 2008; however, the agency did
           not maintain documentation to support correction of the weaknesses identified
           in the scans. Our review of these scans showed that several of the same
           problems were identified in both scans.

           FEC does not perform scanning of workstations and devices attached to the
           network. Therefore, vulnerability identification, patch levels, and compliance
           with security configurations would not be identified through FEC’s current
           scanning processes. OCIO officials confirmed that FEC has not yet
           performed scanning in these areas.




Leon Snead & Company, P.C.	                  14
           OCIO officials have established a POA&M to address the problems noted
           above.

       d.	 Federal Desktop Core Configuration Compliance Not Implemented

           FEC has not implemented best practices and OMB mandated security
           requirements for its desktop workstations. These security requirements have
           been generally accepted as providing necessary strengthening of the federal IT
           systems. OMB has issued guidance, dating from March 2007 that requires all
           federal agencies to implement the Federal Desktop Core Configuration
           (FDCC) security configuration. Federal agencies are required to adopt all of
           the minimum settings in order to be compliant. FDCC settings are
           substantially more restrictive than the current FEC settings. Some security
           enhancements that are required by FDCC include the following:

               •	 Running the system as a standard user and not as administrator.
               •	 Establishing a minimum 12 character password and requiring the
                  password to change every 60 days.
               •	 Disabling wireless service.
               •	 Setting the system cryptograph to use FIPS compliant algorithms for
                  encryption, hashing, and signing.
               •	 Disallowing drivers that are not digitally signed by Microsoft.

       e.	 Personnel Security Controls Strengthened but Gaps Remain

           FEC has policies and procedures in place to ensure that personnel who
           separated from the agency had their network accesses timely removed. For
           fiscal year 2009, we compared the list of personnel who separated from the
           agency within a three-month period to the dates that each person’s network
           access was terminated. Network access was cancelled by the next business
           day for nine of the ten individuals who had separated during this period;
           however, network access for one individual was not removed for
           approximately three months after the individual had separated from FEC.
           OCIO personnel attributed the problem to oversight, has reviewed the
           circumstances surrounding the discrepancy, and advised that the OCIO has
           implemented compensating controls to ensure that the problem does not recur.

       f.	 Interconnection Agreements Not Completed

           Agencies using best practices require providers of external information system
           services to comply with organizational information security requirements and
           employ appropriate security controls in accordance with applicable
           federal laws, Executive Orders, directives, policies, regulations, standards,
           and guidance.     Best practices define government oversight and user




Leon Snead & Company, P.C.	                  15
           responsibilities for external information system services. They also establish
           requirements for monitoring security controls.

           An external information system service is implemented outside of the
           authorization boundary of the organizational information system. For services
           external to the organization, a chain of trust requires that the organization
           establish and retain a level of confidence that each participating provider
           maintains adequate protection for the services rendered to the organization.
           Service-level agreements define the expectations of performance for each
           required security control, describe measurable outcomes, and identify
           remedies and response requirements for any identified instance of
           noncompliance.

           We reviewed the service providers and contractors currently used by the FEC,
           and noted that only one of the three entities, the National Finance Center, had
           an agreement with FEC that complied with the best practice requirements set
           out above.

           FEC has established a POA&M to correct this issue.

       g. Policies and Procedures Should be Established to Meet Best Practices

           As noted above, the FEC’s Office of General Counsel provided us with a
           document that identified that FEC is exempt from all FISMA requirements,
           National Institute of Standards and Technology (NIST) publications, Federal
           Information Processing Standards (FIPS), E-Government Act, Paperwork
           Reduction Act, Computer Security Act of 1987, and OMB Circular A-130,
           Appendix III, Security of Federal Automated Information Resources, among
           others.

           OMB has released extensive guidance on required IT security requirements to
           all federal governmental entities through circulars, bulletins, and memoranda.
           Much of this guidance cites as authoritative sources the laws and regulations
           that the FEC’s Office of General Counsel (OGC) has determined that FEC is
           exempt from compliance. These determinations cite legal authorities, and do
           not deal with the appropriateness of whether these requirements (controls)
           would further strengthen FEC’s IT security program. For some areas, such as
           accounting requirements, OGC has noted that the FEC may use the exempted
           document as a model.

           Currently, the FEC must analyze each document released by OMB and other
           authoritative sources, and determine whether FEC is required to implement
           the guidance, and if exempt, whether the FEC should adopt the controls. In
           effect, this process requires FEC to independently establish a separate IT
           control standard settings process for FEC.




Leon Snead & Company, P.C.                    16
           We identified a prior OIG audit, dated December 2007, Assignment No.
           OIG-07-02, Report on the 2007 Performance Audit of the Federal Election
           Commission’s Compliance with Section 522 of the Consolidated
           Appropriations Act, 2005, that reported concerns similar to ours. The report
           concluded that deficiencies identified in the report were attributable to two
           main factors, one cause was the “…lack of an overall risk-based compliance
           and governance framework at the FEC.”

           The report stated that “FEC decisions on whether to adhere to IT … security
           federal government guidelines often appear to be made based on legal
           interpretations of laws and OMB memorandums, rather than on sound risk
           management.” The report noted that this is supported by evaluating the
           significant legal resources that management assigned to decision making
           compared with limited resources for risk management activities. The report
           cited as an example, management’s decision not to perform privacy impact
           assessments. This decision was made based on an FEC OGC opinion that the
           FEC did not legally have to comply with this requirement, rather than on
           sound risk management.

           The prior report noted, and we confirmed, that other federally appropriated
           organizations that are exempt from FISMA and NIST guidelines have
           formally adopted these requirements as a matter of best practice to help ensure
           that sound internal controls are established and followed.

           Our review of FEC’s guidelines, standards and polices noted that the IT
           security program procedures do not reference any authoritative requirements
           or standards. FEC procedures are not formatted to follow federal standards,
           and do not address many of the specific minimum control techniques required
           by best practices. In addition, we noted that the FEC standards, policies and
           guidance are usually not dated, authenticated with a signature, or include a
           date when the documents will be updated.

       h. Configuration Management

           We reviewed the independent contractor’s report on the IT security control
           requirement for configuration management.         We noted the following
           configuration management deficiencies were identified: FEC does not have a
           formal Change Control Process in place to include proper review and sign-off
           from all responsible managers; and mandatory configuration settings for
           system components are not currently established; and hardening guidelines are
           not in place to ensure system components are configured to the most
           restrictive settings.

           FEC has developed a POA&M to address these deficiencies.




Leon Snead & Company, P.C.                    17
           Recommendations

           7.	 Formally adopt as a model for FEC the NIST IT security controls
               established in FIPS 200, Minimum Security Requirements for Federal
               Information and Information Systems, and SP 800-53, Recommended
               Security Controls for Federal Systems and Organizations.
           8.	 Perform an annual independent assessment to determine whether FEC’s
               agency-wide IT security program meets minimum security controls
               established by NIST.

           9.	 Implement a process to require users’ supervisors to recertify a user’s
               access authorities annually, and maintain documentation to support actions
               taken to address any changes required by the reviews.

          10. Adopt	 Federal Desktop Core Configuration (FDCC) standards and
              implement these standards by the end of the 2010 fiscal year.

          11. Include workstations and devices attached to the network in periodic scans
              performed by FEC.

          12. Maintain documentation showing actions taken to address the problems
              identified by the vulnerability scans.

          13. Implement best practice controls over FEC’s dial-up access.

          14. Review	 the circumstances surrounding the untimely removal of the
              separated employee’s access to FEC’s network, and ensure controls are in
              place to remove the employee’s access immediately upon departure.

          15. Develop an OCIO policy that requires standards, guidelines and policies to
              be dated, authenticated with a signature, and scheduled for review and
              update.

          16. Prepare a detailed POA&M for items identified in the risk assessment of
              the GSS.

       Agency Response

       Management concurs with recommendations 9, 10, 11, 12, 14, 15, and 16.
       Management did not concur with recommendations 7, 8, and 13. Concerning
       recommendations 7 and 8, FEC officials noted that it is already closely mirroring
       the NIST framework; uses the IT security controls in FIPS 200 and SP 800-53 as
       guidance; and deviates from the model only after careful evaluation. FEC
       officials noted that FEC is developing a continuous monitoring program and uses
       the NIST documentation as guidance. Management did not concur with



Leon Snead & Company, P.C.	                  18
       recommendation 13. FEC dial-up users make a direct connection to the FEC’s
       modem pool when establishing a remote connection. Thus, an encrypted line is
       not necessary, and the cost of adding additional overhead caused by encryption
       outweighs the benefits to an already slow communications link.

       Auditor Comments

       We continue to believe that FEC should implement recommendation 13. NIST
       SP 800-53 (AC-17 Remote Access) provides that “Remote access is any access to
       an organizational information system by a user…communicating through an
       external network (e.g., the Internet). Examples of remote access methods include
       dial-up, broadband, and wireless.” We believe that the dial-up is an external
       connection and the control requirements are applicable to FEC’s dial-up access.

       Concerning recommendations 7 and 8, we recognized in the finding that the FEC
       engaged an independent contractor to assess its general support system, using
       NIST SP 800-53 minimum security controls as a basis for the assessment. We
       reviewed the assessment report and related documentation; FEC’s POA&M that
       was prepared to address the weaknesses identified by the assessment; and
       performed independent tests of many of the NIST SP 800-53 minimum security
       control requirements. Our review identified that the assessment tested 168 control
       areas, and concluded whether the controls were implemented, partially
       implemented, not implemented, planned to be implemented, or not applicable to
       the FEC environment. In addition, we noted that included in the independent
       contractor’s report was a disclaimer, noting that while the risk assessment used
       NIST Publications as a guide, the FEC maintains its exemption from NIST and
       FISMA.

       The independent contractor’s assessment report concluded that 82 controls were
       implemented, 28 were partially implemented, 19 were not implemented, 20 were
       planned to be implemented, and 19 were not applicable to FEC’s IT environment.
       These results indicate that approximately 44 percent of the controls applicable to
       FEC’s IT environment were not fully implemented at the time of the review. We
       reviewed the FEC’s POA&M prepared as part of this assessment, and noted that
       the document consolidated the control weaknesses identified in the contractor’s
       report into 23 areas that needed to be corrected. Of this number, 8 were rated as
       high risk, 14 were rated as moderate risk, and 1 as low risk.

       As noted in our audit, and in the independent contractor’s assessment, FEC has
       not fully implemented a significant number of the minimum IT security control
       requirements established by best practices. During our audit, we did not locate
       any policies or procedures, or supporting documentation, that showed either what
       analytical reviews are required or were performed, to support FEC’s
       determination that a specific control requirement should not be adopted or
       implemented. To illustrate, we discussed with FEC officials the lack of




Leon Snead & Company, P.C.                   19
       compliance with FDCC requirements concerning password settings that OMB has
       mandated that all Federal agencies adopt. We were advised that FEC users would
       not support moving from the current password settings to the FDCC required
       settings, and FEC could not commit to implementing the substantially
       strengthened password settings. FEC’s current password settings are substantially
       less rigid than the mandated FDCC settings.

       In summary, we believe that unless the FEC formally adopts the NIST minimum
       security requirements, the FEC will continue to be at unnecessary risk.

A summary of the status of prior year recommendations is included in this report as
Appendix 1.

We noted another control deficiency over financial reporting and its operation that we
have reported to the management of the FEC and those charged with governance in a
separate management letter dated November 13, 2009.

COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws and regulations, as
described in the Responsibilities section of this report, disclosed an instance of reportable
noncompliance that is required to be reported under Government Auditing Standards and
OMB Bulletin 07-04 (as amended).

   3. Compliance with Debt Collection Improvement Act

       FEC does not refer all delinquent debt to the U.S. Department of the Treasury as
       required by the Debt Collection Improvement Act of 1996 (DCIA). Only debts
       administered by the Office of Administrative Review (OAR) are referred to
       Treasury for collection. Receivables administered by the Office of General
       Counsel (OGC) and the office of Alternative Dispute Resolution (ADR) are
       collected within FEC. Our review identified several cases in which the delinquent
       debt had not been referred to Treasury or reported to credit bureaus as required.
       As a result, FEC is not in full compliance with the DCIA and OMB Circular
       A-129, Policies for Federal Credit Programs and Non-Tax Receivables,
       November 2000, as revised.

       Recommendation

       17.	 FEC should develop and enforce policies and procedures for debt collection
            that will ensure compliance with the DCIA and OMB A-129.




Leon Snead & Company, P.C.	                     20
       Agency Response

       Management concurs with this recommendation, and on November 5, it presented
       to the Commission’s Regulations Committee the need to establish policies and
       procedures to ensure full compliance with the DCIA and OMB A-129.

       Auditor Comments

       Since FEC fully concurs with this finding and recommendation, we have no
       additional comments.

RESPONSIBILITIES

Management Responsibilities

Management of the FEC is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers Financial Integrity Act (FMFIA) are met; and
(3) complying with applicable laws and regulations. In fulfilling this responsibility,
estimates and judgments by management are required to assess the expected benefits and
related costs of internal control policies.

Auditor Responsibilities

Our responsibility is to express an opinion on the financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements (as
amended). Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered the FEC’s internal control over
financial reporting by obtaining an understanding of the agency’s internal control,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements.




Leon Snead & Company, P.C.                    21
We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin 07-04 (as amended) and Government Auditing
Standards. We did not test all internal controls relevant to operating objectives as broadly
defined by FMFIA. Our procedures were not designed to provide an opinion on internal
control over financial reporting. Consequently, we do not express an opinion thereon.

As required by OMB Bulletin 07-04 (as amended), with respect to internal control related
to performance measures determined to be key and reported in Management’s Discussion
and Analysis, we made inquiries of management concerning the methods of preparing the
information, including whether it was measured and presented within prescribed
guidelines; changes in the methods of measurement or presentation from those used in
the prior period(s) and the reasons for any such changes; and significant assumptions or
interpretations underlying the measurement or presentation. We also evaluated the
consistency of Management’s Discussion and Analysis with management’s responses to
the foregoing inquiries, audited financial statements, and other audit evidence obtained
during the examination of the financial statements. Our procedures were not designed to
provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether the agency’s financial
statements are free of material misstatement, we performed tests of its compliance with
certain provisions of laws, regulations, and significant provisions of contracts,
noncompliance with which could have a direct and material effect on the determination
of financial statement amounts, and certain other laws and regulations specified in OMB
Bulletin 07-04 (as amended). We limited our tests of compliance to these provisions and
we did not test compliance with all laws and regulations applicable to the FEC.
Providing an opinion on compliance with certain provisions of laws, regulations, and
significant contract provisions was not an objective of our audit and, accordingly, we do
not express such an opinion.

AGENCY COMMENTS AND AUDITOR EVALUATION

We have incorporated the agency’s response to our audit recommendations in the report,
and have attached a copy of the response, in its entirety, as Appendix 2 to this report. In
addition, we have added, where appropriate, auditor comments to address the issues
raised by FEC in its response.

However, the FEC’s written response to the significant deficiencies identified in our audit
has not been subjected to the auditing procedures applied in the audit of the financial
statements and, accordingly, we express no opinion on whether the actions proposed will
remediate the problems noted.




Leon Snead & Company, P.C.                     22
                                                                                                Appendix 1

                                 Status of Prior Year Recommendations

                           Recommendation                                                 Status as of
                                                                                      September 30, 2009
1. Fill vacant positions within the OCFO as soon as possible. Ensure that the         Recommendation closed.
   individuals possess analytical, Federal accounting and financial reporting
   knowledge and experience to enhance the FEC’s ability to comply with
   accounting and financial reporting standards.
2. Evaluate the resources and appropriate skills needed throughout the agency         Recommendation closed.
   to meet FEC’s financial management and reporting responsibilities and
   implement a plan on achieving the results and recommendations of the
   evaluation.
3. Ensure that appropriate and on-going training is provided to FEC employees         Recommendation closed.
   on federal accounting and reporting and the accounting service provider’s
   financial system. Also, ensure OCFO personnel are properly cross-trained in
   department activities.
4. Formalize and periodically update policies and procedures to a) ensure             Recommendation open.
   segregation of duties, b) provide guidance to management and staff in
   recording both recurring and unique transactions, including budgetary
   accounts, and c) provide guidance to management and staff in executing the
   financial statement preparation process in a manner that enhances the
   timeliness of financial statement preparation and minimizes the risk of
   preparing inaccurate financials.
5. Implement control activities to help ensure accounting transactions are            Recommendation open.
   recorded correctly, timely and are properly reviewed and adequate support
   documentation is maintained.
6. Establish formalized policies and procedures for performing continuous             Recommendation closed.
   assessment of risk factors associated with financial reporting, evaluating
   relevant controls and developing or redesigning controls to mitigate risks.
   These policies should include a well-defined documentation process that
   contains an audit trail, verifiable results, and specific retention periods so
   that someone not connected with the procedures can understand the
   assessment process.
7. Enforce the use of the Finance Office Check List throughout the entire fiscal      Recommendation closed.
   year.
8. Establish a mechanism for tracking manual journal entries sent to the              Recommendation closed.
   service provider and maintaining associated support documents.
9. Develop or redesign controls that strengthen the accountability structure          Recommendation closed.
   related to the process for resolving audit findings.
10.Re-evaluate if interfacing its standalone financial management systems with        Recommendation open.
   the service provider’s system is feasible and/or cost effective. If not feasible
   and/or cost effective, consider the subsystems used by the service provider’s
   financial management systems.
11.Finalize and implement FEC’s information classification policy and                 Recommendation closed.
   certification and accreditation policy along with any accompanying
   standards.
12.Incorporate the results of risk assessments into FEC security plans.               Recommendation closed.
13.Utilize corrective action plans for all reviews of security controls whether       Recommendation closed.
   performed internally or by a third-party.




   Leon Snead & Company, P.C.                                24
14.Certify and accredit all major applications and mission critical general     Recommendation closed.
   support systems.
15.Implement a process to ensure that background investigations are performed   Recommendation closed.
   on all contractors prior to granting them access to FEC system resources.
16.FEC should move all of its PeopleSoft financial processing capabilities to   Recommendation open.
   GSA or update its existing platform to vendor-supported versions/releases.
17.Develop and implement a Disaster Recovery Continuity of Operations Plan      Recommendation open.
   (COOP).
18.FEC should promptly terminate access to FEC resources for separated          Recommendation open.
   employees. Procedures should be documented and implemented to
   coordinate separations between Human Resources and IT management to
   ensure user accounts are immediately disabled upon termination.
19.Implement an exit clearance process to track separated FEC contractors and   Recommendation closed.
   ensure that their access permissions are removed and all FEC property has
   been returned.




   Leon Snead & Company, P.C.                           25
                                 Federal Election Commission                           Appendix 2
                                2009 Financial Statement Audit
                            Management Responses to Audit Findings 
                                                   

Audit Recommendation #1: Strengthen controls over the accruals of accounts payable, and
ensure that supervisory reviews of accounts payable accruals are performed.

Audit Recommendation #2: Update OCFO policies to incorporate the new strengthened
processes for identifying and posting accounts payable accruals.

Management Responses for Recommendations #1 and #2: Management partially concurs.
Management concurs that it is important to have appropriate controls over the accruals of
accounts payable. However, Management notes that the referenced Statement of Federal
Financial Accounting Standards (SFFAS) 5, Accounting for Liabilities of the Federal
Government, is not the appropriate criteria to cite when discussing deficiencies with accounts
payable accruals. The Scope of SFFAS #5 paragraphs 2 and 3 specifically states:

       “2. This Statement articulates a general principle that should guide preparers of
       general purpose federal financial reports. It also provides more detailed guidance
       regarding liabilities resulting from deferred compensation, insurance and
       guarantees (except social insurance), certain entitlements, and certain other
       transactions. The Statement addresses liabilities not covered in Statement of
       Federal Financial Accounting Standards (SFFAS) Number 1, Accounting for
       Selected Assets and Liabilities…

       3. The concept of a liability in this document is consistent with those in Statements
       Number 1 and 2. The definition amends the stated definition of a liability in
       SFFAS Number 1. This Statement establishes accounting for liabilities not
       covered in SFFAS No. 1 and 2. Statement Number 1 addresses only those selected
       liabilities that routinely recur in normal operations and are due within a fiscal
       year. The liabilities covered in Statement Number 1 are accounts payable, interest
       payable, and other current liabilities, such as accrued salaries, accrued
       entitlement benefits payable, and unearned revenue.”

Management recognizes that one invoice was improperly excluded from the accounts payable
estimate as of September 30, 2008. However, we feel this was an isolated incident and the issue
noted is not indicative of a lack of internal controls over financial reporting. In our opinion, the
error noted is immaterial to the FY 2008 and FY 2009 financial statements taken as a whole.

Management believes that the appropriate controls were already in place in FY 2008. However,
Management concurs that the operational documentation at the end of FY 2008 lacked clarity.
Therefore, during the preparation of the FY 2009 second quarter interim statements, the Office of
the Chief Financial Officer (OCFO) proactively strengthened its written procedures for this
process of identifying and posting estimated accounts payable. Management notes that the
improved written procedures were in place for the remainder of the year. The accounts payable
accrual process has since been added to the draft version of the Accounting Manual.
Management expects to release the updated Accounting Manual within the next 180 days.


                                                26
 
 
                                Federal Election Commission                          Appendix 2
                               2009 Financial Statement Audit
                           Management Responses to Audit Findings 
                                                 
Audit Recommendation #3: Re-emphasize, in writing, to purchase cardholders and managers
their responsibilities associated with managing the purchase card program payment process and
the need for effective internal controls as discussed in FEC Procurement Procedures.

Management Response for Recommendation #3: Management concurs that the credit card
statement should have been reconciled by the original card holder. However, Management
believes that the corrections needed to address this issue have already been put in place. At the
time that the balance was identified, the individual no longer worked for the agency. As part of
the approved procurement procedures, OCFO requires annual training through the GSA website
for purchase card holders. This was an exception to FEC’s approved processes and is not
indicative of the FEC purchase card process.

Additionally, as part of the corrective action plan prepared in response to an OIG procurement
audit, the OCFO is already in the process of revising and strengthening the purchase card
procedures.

Audit Recommendation #4: Update and issue the Accounting Manual within the next six
months.

Audit Recommendation #5: Establish a policy that requires OCFO policies and procedures to
be periodically reviewed and updated, such as on a two to three year cycle.

Management Responses to Recommendations #4 and #5: Management partially concurs.
Management concurs that having current policies and procedures are an important aspect of
effective financial management. However, Management believes that a significant amount of
work to address these recommendations has already been accomplished.

The following is the status of OCFO Policies and Procedures:

OCFO Policies and Procedures
Policy Name       Original         Latest             Revision Status Last           Document
                  Date             Revision                           Approval       Type
Accounting        4/1/2006         6/30/2009          Regularly       Director of    Policy
Manual                                                updated on an Finance
                                                      as-needed basis
AP        Accrual    4/13/2009     8/12/2009          Final           Director of    Operational
Process                                                               Finance        Procedure
Funds      Control    Non-         6/22/2009          Final           CFO            Policy
Document             applicable
Financial            5/28/2009     5/28/2009          Final            CFO           Policy
Statement
Preparation
Guidance
Fixed        Asset   10/7/2005     5/18/2009          Final            Director of Policy
Policy Guide                                                           Finance

                                               27
 
 
                                Federal Election Commission                         Appendix 2
                               2009 Financial Statement Audit
                           Management Responses to Audit Findings 
                                                 
PPE (Exhibit 3- 4/1/2006           5/20/2009          Final           Director of Operational
29) of Accounting                                                     Finance     Procedure
Manual
Procurement       6/12/2008        6/12/2008          Final           CFO           Policy
Office Policy &
Procedures
SAS 70 review 9/29/2009            10/9/2009          Final           Director of Policy
policy                                                                Finance

The above table shows that OCFO actively reviews and updates policies and procedures
regularly.

Management does not concur that the Accounting Manual was in draft as of September 30, 2009.
As indicated above, the Accounting Manual was first released on April 1, 2006. Only certain
sections that related to the accounting system migration from PeopleSoft to GSA’s Pegasys were
being updated during FY 2009. Therefore, Management believes that the Accounting Manual
was in place for FY 2009 and plans to complete the update in the next 180 days.

Audit Recommendation #6: Partner with FEC service providers to develop a time-phased plan
to convert the manual systems and processes to automated systems that are integrated or
interfaced with the core accounting system. Establish a goal of converting these systems by the
end of 2010.

Management Response to Recommendation #6: Management concurs that it is important for
agencies to look to automate where appropriate and cost-effective. The OCFO has worked
closely with GSA, NFC and OMB in order to identify opportunities for further automation with
current systems. Management notes that manual processes do not always introduce risk. The
OCFO has implemented necessary compensating controls to minimize risks of any manual
processes. We believe the results of our annual FMFIA assessment as well as the results of the
FY 2009 financial statement audit provide us a reasonable basis for concluding that the FEC’s
controls are operating effectively. However, we will continue to evaluate the potential benefits
of adopting automated systems and implementing interfaces to streamline financial processes.

Audit Recommendation #7: Formally adopt as a model for the FEC the NIST information
technology (IT) security controls established in FIPS 200, Minimum Security Requirements for
Federal Information and Information Systems, and SP 800-53, Recommended Security Controls
for Federal Systems and Organizations.
Audit Recommendation #8: Perform, on an annual basis, an independent assessment to
determine whether the FEC’s agency-wide IT security program meets minimum security controls
established by NIST.
Management Response #7 and #8: Management does not concur with these two
recommendations for the following reasons:
    •   The FEC is already closely mirroring the NIST framework and deviates from the NIST

                                               28
 
 
                                Federal Election Commission                         Appendix 2
                               2009 Financial Statement Audit
                           Management Responses to Audit Findings 
                                                 
       model only after careful evaluation.
    •	 The FEC is already utilizing the IT security controls specified in FIPS 200 and SP 800-53
       as guidance.
    •	 The FEC is developing a continuous monitoring program to assess whether the agency is
       effectively meeting its minimum security controls. This continuous monitoring program
       and security control assessment uses NIST documentation as guidance.
    •	 Congress exempted the FEC from NIST, and it would be improper for the FEC’s Office
       of Chief Information Officer to disregard the will of Congress.
    •	 It was not the original intent of NIST to impose a set of standards to which all Federal
       agencies must adhere. Rather, NIST states that “the purpose of its documentation is to
       provide guidance.” See concluding statement
    •	 It would not be in the agency’s best interest to exclude automatically other possible
       sources of best practice due to adherence to one standard.

The 2009 CFO audit report also discussed at length issues the FEC had already identified and
developed POA&Ms to address prior to that audit. These issues were identified because the FEC
contracted with an independent vendor to conduct an unbiased risk assessment and system test
and evaluation (ST&E). This independent risk assessment and ST&E are components of the
Commission’s Certification & Accreditation program.

Audit Recommendation #9: Implement a process to require users’ supervisors to re-certify a
user’s access authorities at least annually, and maintain documentation to support that actions
were taken to address any changes required by the reviews.

Management Response #9: Management concurs with this recommendation and will include
sampling user’s access for re-certification by access authorities to its continuous monitoring
program. The FEC has researched, tested and purchased software to perform this function.

Audit Recommendation #10: Adopt Federal Desktop Core Configuration (FDCC) standards,
and develop a POA&M to implement these standards by end of FY 2010.

Management Response #10: Management concurs with this recommendation and has included
it within the GSS POA&M. The FEC has formed a NIST FDCC team to evaluate, test and
implement NIST FDCC’s security settings. However, best practice dictates that management
strive to strike a balance between security and business needs. Therefore, the FEC reserves the
right to implement only those controls it deems appropriate for its computing environment.

Audit Recommendation #11: Include workstations and devices attached to the network in
periodic scans performed by the FEC.

Management Response #11: Management concurs with this recommendation; however, the
FEC will need to evaluate the feasibility of scanning all of the agency’s workstations to
determine if additional software tools and staff are required to implement this control.
                                               29
 
 
                                Federal Election Commission                          Appendix 2
                               2009 Financial Statement Audit
                           Management Responses to Audit Findings 
                                                 

Audit Recommendation #12: Maintain documentation showing actions taken to address the
problems identified by the vulnerability scans.

Management Response #12: Management concurs with this recommendation and has included
it within the GSS POA&M.

Audit Recommendation #13: Implement best practice controls over the FEC’s dial-up access.

Management Response #13: Management does not concur with this recommendation. FEC
dial-up users make a direct connection to the FEC’s modem pool when establishing a remote
connection. Thus, an encrypted line is not necessary.

Although the NIST standard dictates that encryption be applied for a remote dial-up connection,
the requirement is based upon employing the Internet as a communications channel between the
two end-points (the FEC LAN and the remote user’s laptop). This premise does not take into
account the possibility of simply bypassing the Internet.

In the NIST scenario, the use of encryption would be advocated because data passing through the
Internet communications channel would be unsecure. However, the FEC does not utilize the
Internet as a communications channel when a remote user connects to the FEC LAN during a
dial-up connection. FEC dial-up users make a direct connection to the FEC’s modem pool when
establishing a remote connection; therefore, an encrypted line is not necessary.

The FEC remote dial-up scenario is analogous to the FEC Human Resources (HR) Office
connecting to the Office of Personnel Management (OPM) over a phone to discuss a sensitive
issue. When HR establishes a phone connection to OPM, it is considered relatively secure
because there is a direct connection between the two. This is the same process that occurs when
a remote dial-up user connects to the FEC LAN, and it is relatively secure for the same reason:
there is a direct connection between the two parties.

The only time communications would pass through the Internet would be if one (or both) parties
are employing Voice over Internet Protocol (VoIP). At that point, encryption is automatically
applied by the VoIP technology. The cost of adding additional overhead caused by encryption
outweighs the benefits to an already slow communications link.

Audit Recommendation #14: Review the circumstances surrounding the untimely removal of a
separated employee’s access to the FEC’s network, and ensure controls are in place to remove
employees’ access immediately upon departure.

Management Response #14: Management concurs with this recommendation and considers this
issue closed. As indicated, for nine out of ten individuals who had separated during this period,
network accesses were removed by the next business day. The FEC investigated and concluded
the single oversight was due to the exiting employee failing to notify the appropriate offices.


                                               30
 
 
                                Federal Election Commission                            Appendix 2
                               2009 Financial Statement Audit
                           Management Responses to Audit Findings 
                                                  
The FEC has implemented compensating manual controls (email from HR to OIT Helpdesk on
departure date) to ensure this oversight does not occur again. In addition, an automatic security
control will be implemented to provide better tracking of such issues in December 2009.

Audit Recommendation #15: Develop an OCIO policy that requires standards, guidelines and
policies to be dated, authenticated with a signature and scheduled for review and update.

Management Response #15: Management concurs with this recommendation and will add it to
the GSS LAN POA&M. However, the FEC created 58A Information Technology Program
Policy, which was signed by the Chief Information Officer and dated September 17, 2004. This
policy serves as a single source reference for establishing uniform policies, responsibilities and
authorities for implementing the Federal Election Commission’s Information System Security
Program. All subsequent IT security policies, standards and guidelines gain their authority from
this document, and dates and signatures are therefore not required. However, in the interest of
clarity the FEC will evaluate the advantage of dating, authenticating by signature and including a
date for documents to be updated.

Audit Recommendation #16: Prepare a detailed POA&M for items identified in the risk
assessment of the GSS.

Management Response #16: Management concurs with this recommendation and will add it to
the GSS LAN POA&M.

Concluding Statement for Auditor Findings # 7-16:

As indicated in the audit report, the FEC has corrected the majority of findings identified in the
2008 financial statement audit report and has developed plans of actions and milestones
(POA&M) to address all remaining deficiencies. The FEC has also developed POA&Ms to
address those deficiencies identified during the 2009 Chief Financial Officer (CFO) audit. The
majority of these deficiencies were brought to our attention prior to the 2009 CFO audit because
the FEC contracted an independent vender to conduct an unbiased risk assessment and system
test and evaluation (ST&E). This independent risk assessment and ST&E are components of the
Commission’s Certification & Accreditation program.

A large portion of the 2009 audit report focuses on the CFO auditor’s assertion that the FEC
should adopt Federal Information Security Act (FISMA) and National Institute of Standards and
Technology (NIST) guidance as a standard. Management does not concur with this assertion for
several reasons. First, it would be improper for the FEC to disregard the will of Congress.
Congress exempted the FEC from numerous laws and regulations. Whether Congress took this
step to allow the agency to maintain a sense of autonomy from other components of the Federal
government, or for other reasons, the fact remains that it did exempt the agency and that is the
law.

Second, it should be noted that it was not the original intent of NIST to impose a set of standards
to which all Federal agencies must adhere. As stated in NIST, “the purpose of its documentation

                                                31
 
 
                                Federal Election Commission                           Appendix 2
                               2009 Financial Statement Audit
                           Management Responses to Audit Findings 
                                                 
is to provide guidance.” Bearing this in mind, the FEC does utilize NIST as one source of
guidance when determining best practice. However, the FEC determined early in the policy
development process that it would not be in the agency’s best interest to automatically exclude
possible sources of knowledge due to adherence to one standard. This was demonstrated when
the FEC engaged an independent contractor to perform an unbiased risk assessment and analysis
of FEC security controls in its General Support System (GSS), the FEC Local Area Network
(LAN). The independent contractor utilized the same NIST documentation as the CFO auditors
when evaluating the FEC’s risk posture and security controls.

The FEC is already closely mirroring the NIST framework and only deviates from the NIST
model after careful evaluation of a given situation and when the agency has determined that there
is either a better or more cost effective method of achieving its IT security goals. It should be
noted that NIST itself allows for justified deviations. One example is the FEC’s justification for
not adhering to the NIST recommendation concerning remote access.




                                               32
 
 
                               Federal Election Commission                       Appendix 2
                              2009 Financial Statement Audit
                          Management Responses to Audit Findings 
                                               
Audit Recommendation #17: FEC should develop and enforce policies and procedures for debt
collection that will ensure compliance with the DCIA and OMB A-129.

Management Response to Recommendation #17: Management concurs. On November 5,
Management presented to the Commission’s Regulations Committee the need to establish
policies and procedures to ensure full compliance with the DCIA and OMB A-129. The
Commission directed the OCFO and OGC to begin work to complete this project in calendar
year 2010. Management notes that this issue only impacts approximately 11% of FEC’s debt.




                                             33
 
 
     CONTACTING THE OFFICE OF INSPECTOR GENERAL
The success of the OIG mission to prevent fraud, waste, and abuse depends on the
cooperation of FEC employees (and the public). There are several ways to report
questionable activity.




      Call us at 202-694-1015 (a confidential or anonymous message can be
      left 24 hours a day/7 days a week) or toll-free at 1-800-424-9530 (press 0;
      then dial 1015 - Monday - Friday 8:30am – 5:00pm).




      Write or visit us - we are located at: 	 Federal Election Commission
                                             Office of Inspector General
                                             999 E Street, N.W., Suite 940
                                             Washington, D.C. 20463

      Mail is opened by OIG staff members only.




You can also fax (202-501-8134) or contact us by e-mail at: oig@fec.gov.
Website address: http://www.fec.gov/fecig/fecig.shtml


Individuals may be subject to disciplinary or criminal action for knowingly making
a false complaint or providing false information.
